/\PP£Nb?X

*/r
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6518
CASEY RAFAEL TYLER,
Plaintiff - Appellant,
v.

KATY POOLE; LACHELLE BULLARD,
Defendants - Appellees.

Appeal from the United States District Court for the Middle District of North Carolina, at
Greensboro. William L. Osteen, Jr., District Judge. (l:17-cv-01104-WO-JLW)
Decided: October 23, 2020

Submitted: October 20, 2020

Before GREGORY, Chief Judge, DIAZ, Circuit Judge, and SHEDD, Senior Circuit Judge.
Affirmed by unpublished per curiam opinion.
>1

Casey Rafael Tyler, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

app£n;btxH

//

PER CURIAM:
Casey Rafael Tyler appeals the district court’s order accepting the recommendation
of the magistrate judge and denying relief on Tyler’s 42 U.S.C. § 1983 complaint. We
have reviewed the record and find no reversible error. Accordingly, we affirm for the
reasons stated by the district court.

Tyler v. Poole, No. l:17-cv-01104-WO-JLW

(M.D.N.C. Mar. 31, 2020). We dispense with oral argument because the facts and legal
contentions are adequately presented in the materials before this court and argument would
not aid the decisional process.
AFFIRMED

2

/^PPENbtX
//

\\

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA

CASEY RAFEAL TYLER,

)
)

Plaintiff,
)
)
)
)

v.
KATY POOLE and
LACHELLE BULLARD,
Defendants.

1:17CV1104

)

ORDER
This matter is before this court for review of the
Memorandum Opinion and Recommendation ("Recommendation") filed
on November 25, 2019, by the Magistrate Judge in accordance with
28 U.S.C. § 636 (b) .

(Doc. 35.) In the Recommendation, the

Magistrate Judge recommends that Defendants' motion for summary
j udgment,

(Doc. 30), be'granted and that this action be

dismissed. The Recommendation was served on the parties to this
action on November 25, 2019.
objections,

(Doc. 36.) Plaintiff filed

(Doc. 37), within the time limit prescribed by

Section 636.
This court is required to "make a de novo determination of
those portions of the [Magistrate Judge's] report or specified
proposed findings or recommendations to which objection is
made." 28 U.S.C. § 636(b)(1). This court "may accept, reject, or

Case l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20 Paae 1 of 17

modify, in whole or in part, the findings or recommendations
made by the [MJagistrate [J]udge ... or recommit the matter to
the [M]agistrate [JJudge with instructions." Id.
Though the court has reviewed the Magistrate Judge's report
de novo and has determined all of Plaintiff's objections are
immaterial or without merit, it addresses several of these
objections here.
First,1 Plaintiff argues that he alleged a First Amendment
freedom of assembly claim against Defendant Poole which the
Magistrate Judge did not address.

(PI.'s Objections to

Magistrate Judge's Recommendation ("Pl.'s Objs.")

(Doc. 37)

5 2.) Plaintiff does not, however, explain in his objections how
an associational right, as specifically addressed by the
Magistrate Judge,

(Recommendation (Doc. 35) at 11-12),2 and an

assembly right might be different, or more specifically,

l

Plaintiff's first objection is actually that he has been
prejudiced in not having counsel appointed. (Pl.'s Objections to
Magistrate Judge's Recommendation (Doc. 37) SI 1. ) This court
addressed that argument in a previous order. (Doc. 15.)
Plaintiff has not presented new evidence or argument that alters
that analysis.
2 All citations in this Order to documents filed with the
court refer to the page numbers located at the bottom right-hand
corner of the documents as they appear on CM/ECF.

-2-

Case l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20. Paae 2 of 17

different on the facts of this case.3 Instead, Plaintiff merely
restates his complaint of Defendant Poole "forcing me too close
to people I don't want to associate with while I'm eating."
(PI.'s Objs.

(Doc. 37)

5 2.) The Magistrate Judge clearly

addressed Plaintiff's claim of his associational right relating

3 Plaintiff is partially correct about a difference between
freedom of assembly and freedom of association. "[F]reedom of
n
assembly, includes of course freedom of association . .
Bates v. City of Little Rock, 361 U.S. 516, '528 (1960) (Black,
J., concurring). As explained by the Court in a later case,
"Our decisions have referred to constitutionally
protected 'freedom of association' in two distinct
senses. In one line of decisions, the Court has
concluded that choices to enter into and maintain
certain intimate human relationships must be secured
against undue intrusion by the State because of the
role of such relationships in safeguarding the
individual freedom that is central to our
constitutional scheme. In this respect, freedom of
association receives protection as a fundamental
element of personal liberty. In another set of
decisions, the Court has recognized a right to
associate for the purpose of engaging in those
activities protected by the First Amendment — speech,
assembly, petition for the redress of grievances, and
the exercise of religion."
City of Dallas v. Stanglin, 490 U.S. 19, 24 (1989) (quoting
. Roberts v. United States Jaycees, 468 U.S. 609, 617-18 (1984)).
The difference between the two, however, does not help Plaintiff
‘here. Plaintiff has only raised what can be construed as an
association claim (in that he is being forced to associate),
(see Complaint (Doc. 2) at 12), a claim the Magistrate Judge
adequately addressed. Plaintiff's Complaint, even when construed
liberally, never alleges that he was denied the right to "to
meet peaceably [with others] for consultation in respect to
public affairs and to petition for a redress of grievances." De
Jonge v. Oregon, 299 U.S. 353, 364 (1937).
-3-

Case l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20 Paae 3 of 17

to dining.

(Recommendation (Doc. 35) at 10-12.) This is not an

inconsequential failure on the part of Plaintiff as a court
"must accord substantial deference to the professional judgment
of prison administrators" and "[t]he burden ... is not on the
State to prove the validity of prison regulations but on the
prisoner to disprove it." Overton v. Bazzetta, 539 U.S. 126, 132
(2003). "[FJreedom of association is among the rights least
compatible with incarceration. " Id-, at 131 (citing Jones v. N.C.
Prisoners' Labor Union, Inc., 433 U.S. 119, 125 (1977); Hewitt
v. Helms, 459 U.S. 460 (1983)). "Some curtailment of that
freedom must be expected in the prison context." Id.
As the Fourth Circuit has recognized, "[njothing could be
more routine in prison administration than determining dining
hours and practices." Childs v. Peqelow, 321 F.2d 487, 490 (4th
Cir. 1963). In Childs, the Fourth Circuit explained:
It is .clear from the original petitions that
plaintiffs sought merely to have the court enforce an
agreement by which defendant Pegelow was alleged to
have orally promised to daily provide Muslim inmates
of Lorton with a full course pork-free meal after
sundown during the month of December 1962. Such
arrangements are clearly matters of internal prison
administration, no doubt bringing.into play many
varied considerations, and do not rise to the level of
constitutional rights involving due process of law and
equal protection of the laws such as those recognized
and protected in the few cases where courts have
carved out exceptions to the accepted rule of
noninterference with prison administration. There is
no charge here of discrimination against the
plaintiffs by way of interference with the practice of
-4-

Case l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20 Paae 4 of 17

their religious beliefs as in Sewell v. Pegelow, 291
F.2d 196 (4th Cir. 1961). Nothing could be more
routine in prison administration than determining
dining hours and practices. The plaintiffs are, in
fact, seeking special privileges because of their
religious beliefs, privileges not extended to the
other inmates. It is readily foreseen that, in
considering plaintiffs' request for a late supper
hour, many complicated problems might be presented
involving the services of- kitchen supervisors, cooks,
dish washers, attendants, their hours of work and
their periods of relaxation and rest. It has been
pointed out repeatedly that prisoners suffer a
limitation of many privileges and rights, Price v.
Johnston, 334 U.S. 266,' 285, 68 S. Ct. 1049, 92 L. Ed.
1356 (1948), even a limitation of the right to bring
civil actions. See Tabor v. Hardwick, 224 F.2d 526
(5th Cir. 1955), and reference therein to the
recognition of the fact that, under the laws of many
states, imprisonment destroys the legal capacity of
penitentiary inmates to sue. We find no basis in the
present cases for making an exception to the general ■
rule that courts will not interfere with routine
matters of prison administration. We, therefore, hold
that no justiciable issue was presented by the
petitions and there was no duty devolving upon the
District Court to [cjonduct a hearing or consider the
merits of the charges.
Childs, 321 F.2d at 490. 4

4

Plaintiff also claims he was "accosted" for eating too
slowly. (Doc. 23 at 1.) Plaintiff now claims that the allegation
is uncontested and therefore admitted. (PI.'s Objs. (Doc. 37)
1 13.) Despite Plaintiff's contention, Defendants denied that
allegation. (Doc. 29 at 2.)
It is possible Plaintiff is alleging that he exceeded the
fifteen minutes allotted by prison policy for inmates to finish
their meals. (See Defs.' Br. (Doc. 31) Attach. 1, Affidavit of
Katy E. Poole ("Poole Aff.") (Doc. 31-1) at 11.) This is not an
unreasonable policy. See Childs, 321 F.2d at 490. Even if
Plaintiff's allegation is uncontested, it does not rise to the
level of a constitutional violation. Plaintiff does not allege
(Footnote continued)
-5-

Case l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20 Paae 5 of 17

Plaintiff's allegations fail to explain why the dining hall
rules, applicable to all inmates, constitute an infringement of
a constitutional right. As the Magistrate Judge found, "there do
not appear to be any decisions holding that a prisoner has the
right not to dine with other individuals, even if doing so is
prohibited by the prisoner's religion." (Recommendation (Doc.
35) at 11. )
Nevertheless, as found by the Magistrate Judge, the court
concludes Defendant Poole at a minimum has qualified immunity
because the right of prisoners to associate (or not associate)
in the dining hall has not been clearly established such that
"every reasonable official would have understood that what [she]
is doing violates that right." Reichle v. Howards, 566 U.S. 658,
664 (2012)

(internal quotation marks and alterations omitted).

Plaintiff's objections to the Magistrate Judge's association
analysis set forth in the Recommendation are overruled.
Plaintiff also objects to several factual findings by the
Magistrate Judge relevant to Plaintiff's claim of retaliation.

that he was physically accosted or assaulted in any way. In
fact, Plaintiff has not come forward with any evidence at all on
this allegation. Plaintiff cites generally to his affidavit, but
that document does not contain any information regarding an
alleged accosting for not eating fast enough. He does aver that
he has dental problems, but not that he was accosted for chewing
too slow as a result. (See Doc. 34 at 3-4.)
-6-

Case l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20 Paae 6 of 17

The Magistrate Judge found that the allegations that Defendant
Poole's actions alleged as retaliation "are conclusory,"
(Recommendation (Doc. 35) at 15), and that the record does not
"indicate that Defendant Poole was involved in the decision to
drug-test Plaintiff or bring the subsequent charges against him
when he refused to provide a urine sample." (Id.) Plaintiff
objects to those findings,

(PI.'s Objs.

(Doc. 37) M 4-6), as

well as alleging that the Recommendation failed to recognize his
placement in regular population as retaliation,

(id. 11 8-11).

Plaintiff's objection to the facts found by the Magistrate
Judge is without merit. First, Plaintiff argues that Defendant
Poole, as the "Facility Head," was aware of the dental issues
and complaints by Plaintiff as to his disciplinary action and
assignment to regular population. (Id. 1 6.) Plaintiff cites a
variety of sources to support his argument, primarily relying
upon the regulations that outline the role of the Facility Head
in the disciplinary process.

(Id.) In fact, the Magistrate Judge

did not find, nor did Defendant Poole state, that Defendant
Poole "had zero to do with [Plaintiff] being drug tested or the
charges that [Plaintiff] faced, in Jan-Feb 2018." (Id.) Instead,
the Magistrate Judge found that "the record demonstrates that
Defendant Poole did not participate in Plaintiff's disciplinary
hearing for the B-25 infraction," (Recommendation (Doc. 35) at

-7-

Case l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20 Paae 7 of 17

15), and that Defendant Poole was not involved "in the decision
to drug-test Plaintiff or bring the subsequent charges against
him when he refused to provide a urine sample." (Id.) Even
assuming, as Plaintiff argues, that Defendant Poole was aware,
as "Facility Head," of the fact of these charges, the record
clearly indicates Defendant Poole did not participate in the
disciplinary hearing nor is there any evidence that Defendant
Poole ordered the drug testing.
The evidence with respect to the disciplinary prosecution
is not disputed except as to Plaintiff's allegations as to
Defendant Poole's knowledge. According to the affidavits of
Defendant Poole and Defendant Bullard, "Sgt Miles informed
inmate Casey Tyler ... to pack up because he is getting
released to regular population. Inmat [sic] refused to pack up
to go back to regular population. Offender is charged with a
B25." (Defs.' Brief in Supp. of Mot. for Suitim. Judgment ("Defs.'
Br.")

(Doc. 31) Attach 2, Affidavit of Lachelle Bullard

("Bullard Aff.")

(Doc. 31-2) at 39.) Apparently the incident was

investigated by Justin Chavis after the initial report from Sgt.
Miles.

(Id. at 41.) The Disciplinary Hearing Officer found

Plaintiff guilty of the B25 offense "based on the reporting
party's statement and the investigating officer's report." (Id.
at 39.) "Plaintiff appealed the guilty determination per NCDPS
-8-

Case l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20 Paae 8 of 17

policy to the Director of Prisons. Plaintiff's Disciplinary File
was reviewed by Monica Bond . . . . On 26 March 2018 the
punishment for the B-25 infraction Was upheld on appeal . .
(Bullard Aff.

rr

(Doc. 31) 1 14.)

This court agrees with the findings of the Magistrate
Judge, that Plaintiff's allegations that Defendant Poole "took
action that adversely affected that right are conclusory," and
that "Defendant Poole did not participate in Plaintiff's
disciplinary hearing for the B-25 infraction . .

rr

(Recommendation (Doc. 35) at 15.)
Further, Plaintiff does not dispute the central fact that
he refused to return to regular population when ordered to do
so. In summary, his argument is that Defendant Poole "had no
choice but to read all of this data in order to 'determine' what
to do about my refusal to return to rp (regular population). She
chose to prosecute me. That's deliberate indifference manifest."
(PI.'s Objs.

(Doc. 37) I 6.) Because Plaintiff does not dispute

the fact that he did fail to follow an order and thereby violate
the regulations, any knowledge Defendant Poole may have had as
facility head is not sufficient to establish retaliation. Even
if Defendant Poole made a conscious decision to allow the
disciplinary action to proceed, Plaintiff's misconduct vitiates

-9-

Case l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20 Paae 9 of 17

any inference that .might be drawn from Defendant Poole's
decision.
Similarly, with respect to the drug test, the Magistrate
Judge concluded that the record does not "indicate that
Defendant Poole was involved in the decision to drug-test
Plaintiff or bring the subsequent charges against him when he
refused to provide a urine sample." (Recommendation (Doc. 35) at
15.) The undisputed facts set forth in Defendant Poole's
affidavit and the attachments establish which individuals were
involved in the drug testing and disciplinary processes.
Poole Aff.

(See

(Doc. 31-1) at 98-121.) Plaintiff has presented no

evidence that Defendant Poole had any involvement in the drug
test incident, and his unsupported speculation is insufficient
to establish that Defendant Poole had any involvement in the
process. Defendant has not presented any evidence that the
incident arose as a result of an effort by Defendant Poole to
retaliate against Plaintiff for filing a complaint.
Plaintiff further alleges the Magistrate Judge failed to
consider his removal from protected population to regular
population as an act of retaliation.

(PI.'s Objs.

(Doc. 37)

1SI 8-11.) With respect to his request to be placed in protective
custody, Plaintiff alleges in his affidavit that he witnessed a
fight in the dining hall in 2017,

(Doc. 34 at 1), that he had to

-10-

Case l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20 Paae 10 of 17

sit with his back to the serving line,

(id. at 2), that he knew

of another inmate hit by a gang in the dining hall,

(id.), and

that he has to sit at tables with individuals he was not able to
identify for fear of retaliation,

(id.). Nevertheless,

Plaintiff's request for protective custody, dated January 1,
2018, is not disputed and states the following:
I seek protective custody for fear of physical
confrontation with dining hall staff who will not let
me eat my meals in peace. I sued Katy Poole recently
over this issue, actually in .December 2017, & the
federal court is looking into it. I have missed many
meals trying to avoid dining hall staff & I can't keep
that up. Plus, I cannot continue to put up with their
hostility peaceably. To avoid an assault on myself, or
retaliation for my lawsuit, I want protective custody,
& so I can eat in peace.
(Bullard Aff.

(Doc. 31-2) at 60.)

The investigator, Sergeant Willie Davis, filed a report and
concluded that "inmate Tyler did not provide enough information
in his statement. Due to lack of evidence provided by inmate
Tyler, his request is denied." (Id. at 59.) Sergeant Davis's
report is dated January 22, 2018.

(Id.) Plaintiff was then

ordered to exit restrictive housing on January 23, 2018, and
return to regular population.

(Bullard Aff.

(Doc. 31) 5 12.)

Although Plaintiff alleges retaliatory intent as to
Defendant Poole, Plaintiff does not dispute the objective facts
described above. This court is unable to determine that the
decision by Sergeant Davis that Plaintiff did not provide enough
-11-

Case l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20 Paae 11 of 17

information, is improper, much less that the decision was an act
of retaliation on the part of Defendant Poole.

Possible

hostility from dining hall staff falls far short of
demonstrating a physical threat to Plaintiff. Any error on the
part of the Magistrate Judge to specifically address this
particular issue, the return of Plaintiff to the regular
population as retaliation,

is. harmless.5

Plaintiff objects to the Magistrate Judge's analysis
regarding his dental health Eighth Amendment claims against both
Defendants.

(Pl.'s Objs.

(Doc. 37) If 6, 14.) Specifically,

Plaintiff's argument posits that Defendants did in fact know
about his dental health problems prior to the filing of his
instant lawsuit.

(Id.)

Plaintiff points out that his dental

complaints are included in one of the investigative reports,

one

of which is dated January 24, 2018, in which he claims to have
"sensitive and weak teeth."

(Id. f 14; Bullard Aff.

(Doc. 31-2)

at 41, 53.) The court initially notes that, as to Defendant
Bullard, Plaintiff's argument is immaterial as her duties did

5 Plaintiff objects to the Magistrate Judge's failure to
address his "harassment" claim. (Pl.'s Objs. (Doc. 37) f 3.)
Plaintiff claims Defendant Poole's dining hall policies about
seating were "harassment for harassment's sake . .
■" (Id.)
Plaintiff has not come forward with any evidence to support the
allegation that Defendant Poole implemented the policy to merely
harass inmates, and "courts will not interfere with ^routine
matters of prison administration," Childs, 321 F.2d at 490,
especially when faced with bare accusations.
-12-

Case l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20 Paae 12 of 17

not include the provision of medical services.

(Bullard Aff.

(Doc. 31-2) 51 3-6.)
With regard to Defendant Poole, Plaintiff alleges,
(Complaint (Doc. 2) at 2), and Defendant Poole confirms, that
she is "the Correctional Facility Administrator at Scotland
Correctional Institution," (Poole Aff.

(Doc. 31-1)

1 3) . Poole's

affidavit also states that she is "not a healthcare provider."
(Id. 5 11.) However, she does note that "the facility head is
responsible for providing 'an environment that ensures the
r //

appropriate delivery of health services.

(Id.) Neither party

satisfactorily explains whether the "Correctional Facility
Administrator" is the "facility head" within the meaning .of the
regulations. Nevertheless, assuming that Defendant Poole is the
facility head and responsible for the appropriate delivery of
health services, the record fails to establish deliberate
indiffence to Plaintiff's dental issues.
The Magistrate Judge found that Plaintiff "has suffered
from.poor dental health for several years" and "[p]rior to
Thanksgiving 2017, he began to request teeth that were causing
him pain be extracted." (Recommendation (Doc. 35) at 3.) These
facts are not disputed.
Furthermore, although there is evidence that Plaintiff
requested that his teeth be extracted,

(Doc. 33-2,

33-3; Poole

-13-

Case l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20 Paae 13 of 17

Aff.

(Doc. 31-1) at 17), the specific evidence as to the .

conditions of confinement and Plaintiff's dental issues do not
establish deliberate indifference or any retaliation.
The medical records, attached to Defendant Poole's
affidavit as Exhibit C, are not disputed. Those records reflect
that on January 13, 2018, Plaintiff filed a request for an
administrative remedy.

(Poole Aff.

(Doc. 31) SI 12;

(Doc. 31-1)

at 17.) In that request, he described the fact that food
incompatible with his teeth "cause [] horrendous pain" and he
wanted those teeth extracted "immediately." (Id.) On January 31,
2018, Plaintiff signed a form in which he was advised that
"[t]his patient is on the waiting list and will be seen as soon
as possible, if it is an emergency he should declare an
emergency." (Id. at 18.) Plaintiff appealed, and on February 1,
2018, the finding was upheld.

(Id. at 19.) Plaintiff appealed

that decision to the Secretary, and March 14, 2018, the finding
was upheld.

(Id. at 20.) The record is not disputed and

establishes Plaintiff's grievance was reviewed, responded to,
and Plaintiff was offered a remedy or the possibility of
immediate treatment by declaring an emergency. Plaintiff did not
take that step, but instead awaited the results of the appeal
process through March 14, 2018. The records submitted by
Defendants do not reflect any further requests by Plaintiff
-14-

Case 1:17-cv-Ol 104-WO-JLW Document 39 Filed 03/31/20 Paae 14 of 17

after January 13, 2018, and Plaintiff makes no allegation that
he submitted such a request. More pointedly, there is no
evidence Plaintiff ever declared an emergency as he was
instructed.
Instead, the medical records indicate, without objection or
contradiction, that Plaintiff began a hunger strike possibly as
early as March 11, 2018.

(See id. at 33, 77). The records

reflect that Plaintiff -was seen regularly by medical staff
between March 11, 2018 and March 23, 2018, checking his
condition during the declared hunger strike.

(See id.) None of

those medical records reflect that Plaintiff made a request for
dental examination or treatment.

(See generally id. at 28-77.)

Plaintiff submits no evidence that he made a request for dental
examination or declared a dental emergency during that time. It
is not clear when the hunger strike may have ended, but on
April 3, 2018, the medical notes indicate a standard order for
dietary recommendations was entered.

(Id. at 27.)

On April 26, 2018, Plaintiff was seen for a dental
examination.

(Id. at 96-97.)

As the Magistrate Judge recognized,
"A claim of deliberate indifference . . . implies at a
minimum that defendants were plainly placed on notice
of a danger and chose to ignore the danger
notwithstanding the notice." White ex rel. White v.
Chambliss, 112 F.3d 731, 737 (4th Cir. 1997). "[A]
prison official- cannot be found liable under the Eighth
-15-

Case l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20 Paae 15 of 17

Amendment for denying an inmate humane conditions of
confinement unless the official knows of and disregards
an excessive risk to inmate health or safety . . . /r
Farmer [v. Brennan,] 511 U.S. [825] at 837 [1994].
(Recommendation (Doc. 35) at 13.) An extended period of time
between the time Plaintiff filed his administrative request for
treatment,

(Poole Aff.

(Doc. 31-1) at 17,) and the time when he

actually received treatment,

(id. at 96-97), could be suggestive

of deliberate indifference to Plaintiff's dental needs,
depending upon the circumstances. Nevertheless, Plaintiff was
advised of an opportunity to receive immediate treatment
declare an emergency - and Plaintiff refused to do so, whether
willfully or otherwise. Furthermore, Plaintiff engaged in a
hunger strike for a substantial period of that time, and in
spite of the fact he received some type of medical examination
regularly, he never requested dental treatment, emergency or
otherwise. No evidence has been presented as to any attempts
between November 2017 and January 13, 2018, by Plaintiff to
receive treatment, although there is one note of a dental
examination in September and the fact Plaintiff would be placed '
on a waiting list.

(Poole Aff.

(Doc. 31-1) at 18.) The evidence

between January 13, 2018, and April 26, 2018, is that Plaintiff
made no requests for dental treatment, emergency or otherwise,
during a time when he was regularly examined by medical
personnel.
-16-

Case l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20 Paae 16 of 17

• «

Under these circumstances, Plaintiff has failed to
demonstrate prison officials were deliberately indifferent to
his medical needs, nor does the evidence show prison officials
disregarded an excessive risk to inmate health or safety.
The court finds Plaintiff''s objections do not change the
substance of the United States Magistrate Judge's
Recommendation,

(Doc. 35), and therefore adopts the

Recommendation.
IT IS THEREFORE ORDERED that the Magistrate Judge's
Recommendation,

(DOC. 35), is ADOPTED. IT IS FURTHER ORDERED

that Defendants' Motion for Summary Judgment,

(Doc. 30), is

GRANTED and that this action is DISMISSED. A Judgment dismissing
this action will be entered contemporaneously with this Order.
This the 31st day of March, 2020.

L.

\

United States District Ju

-17-

Casd l:17-cv-01104-WO-JLW Document 39 Filed 03/31/20 Paae 17 of 17

APPEMblX
"C "

• <-=j

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA
CASEY RAFEAL TYLER,
Plaintiff,

)
)
)
■)

v.

KATY POOLE, et al,
Defendants.

L17CV1104

)
)
)
)
)

MEMORANDUM OPINION AND RECOMMENDATION
OF UNITED STATES MAGISTRATE TUDGE
This matter is before the Court on Defendants Katy Poole and Lachelle Bullard’s
motion for summary judgment (Docket Entry 30). Plaintiff Casey Rafeal Tyler has filed a
response. (Docket Entry 33.) For the reasons stated herein, the Court will recommend that
Defendants’ motion for summary judgement be granted.
I. BACKGROUND
The following facts arise from the parties’ affidavits and exhibits.
A. The Parties
Plaintiff is a pro se prisoner of the State of North Carolina and was previously
incarcerated in Scotland Correctional Institution (“Scotland”). (See Complaint fflf 1(A), IV(B),
Docket Entry 2.) Scotland is a facility in the North Carolina Department of Public Safety,
Division of Adult Correction and Juvenile Justice (“NCDPS”). Defendant Poole has been the
Correctional Facility Administrator for Scotland since December 2014 (Affidavit of Katy
Poole Tj 3, Docket Entry 31-1.) Defendant Bullard has been a Classification Coordinator for
Scotland since December 2014. (Affidavit of Lachelle Bullard

3, Docket Entry 31-2.) Her

1

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 1 of 19

. «

duties include processing promotions and demotions of Scotland inmates’ custody
classifications and levels. (Id. Tf 6.)
B. The Original Complaint
On December 7, 2017, Plaintiff commenced the instant action by filing a complaint'
under 42 U.S.C. § 1983 against Defendant Poole. (Compl.

11(A).) Plaintiff alleged violations

of his rights under the First, and Eighth, and Fourteenth Amendments. (Id. 'll 11(B).) Plaintiff s
subsequent briefing clarifies that his claims under the First Amendment are for alleged
violations of his rights to freely exercise his religion and freely associate. (See Docket Entry
33 at 1, 4.) The facts discussed here pertain to the claims in this complaint.
In July 2017, Scotland reviewed its feeding procedures, and Defendant Poole approved
a new policy for the dining hall.1 (Poole Aff. U 8; Ex. A at 1-6, Docket Entry 31-1.) Per the
policy, inmates would no longer be permitted to select the seat and table where they could eat;
instead, they would be directed by prison staff to a seat once they exited the serving line. (Ex.
A at 4, Docket Entry 31-1.) The purpose of this policy is “to ensure that the inmates confined
at Scotland were provided a safer and more secure environment while eating in the dining
hall.” (Poole Aff. If 8.)
This policy has affected Plaintiff in a number of ways. Plaintiff, who practices Islam,
has been required by prison staff to “sit at tables with bloods [sic], crips [sic], gangster disciples
[sic], and various mexican [sic] gang members ... as well as guys that. . . hate Islam” despite
his unwillingness to do so. (Affidavit of Casey Rafeal Tyler at 2, Docket Entry 34.) He has

Plaintiff states in his Complaint that the policy has been in effect since November 2015.
(Compl. If IV(B)-(C).)
2

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 2 of 19

also been required to sit at tables where other inmates are eating pork, which he states is
prohibited by his faith. (Id. at 3.) Additionally, Plaintiff is fearful because at least some of the
seats requires inmates to sit close and with their backs to the dining hall serving line, which
leaves them vulnerable to an attack by another inmate. (Id. at 1.) The only alternative Plaintiff
has to sitting as directed is to forfeit his meal. (Id. at 3.)
Defendant Poole filed her answer to this complaint on March 9, 2018. (Docket Entry
2018.) On November 27, 2018, Plaintiff was transferred to Polk Correctional Institution,
where he currently resides. (Bullard Aff. Tf 11.)
C. The Supplemental Complaint
On December 13, 2018, Plaintiff filed a supplemental complaint, alleging new § 1983
claims against both Defendants Poole and Bullard. (Supp. Compl., at 4-6, Docket Entry 23.)
Specifically, Plaintiff alleges a First Amendment retaliation claim against Defendant Poole, an
Eighth Amendment claim against both Defendants, a Fourteenth Amendment Due Process
claim against both Defendants, and a Fifth Amendment Double Jeopardy Claim against
Defendant Bullard.

(Id.)

The facts discussed here pertain to the claims alleged in the

supplemental complaint.
Plaintiff has suffered from poor dental health for several years. (See Tyler Aff. at 4.)
Prior to Thanksgiving 2017, he began to request teeth that were causing him pain be extracted.
(Ex. C at 1, Docket Entry 31-1.) Despite his requests to see a dentist for treatment, he was
not seen until April 26, 2018, when he had a tooth pulled after the dentist found “extensive
decay.” (Id. at 81.) Plaintiff had a second tooth pulled on July 19, 2018 (id. at 72), and a third

3

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 3 of 19

,

on September 6, 2018 (id. at 68).

Plaintiff attributes his dental health problems, in part, to

Scotland’s failure to provide dental floss to inmates in Control Housing. (Tyler Aff. at 3-4.)
On January 1, 2018, Plaintiff left regular population housing at Scotland and applied
for protective control housing because he had “missed many meals trying to avoid dining hall
staff’ and could not “continue to put up with their hostility peaceably.” (Ex. F at 2, Docket
Entry 31-2.) Additionally, he feared retaliation from Defendant Poole for filing his original
complaint in the instant lawsuit. (Id.)
NCDPS’ protective control policy at the time required that “a determination must be
made that the offender’s request [for protective control housing] is legitimate and that Restrict
Housing is necessary for the continued well-being of the offender.” (Ex. C at 1, Docket Entry
31-2.) In accordance with that policy, a non-party NCDPS employee investigated Plaintiff s
allegations. (See Ex. C at 1, Docket Entry 31-2; Ex. F at 1, Docket Entry 31-2.) In late January
2018,2 that investigator issued a recommendation to deny Plaintiffs request for protective
control housing due to insufficient evidence. (Ex. F at 1, Docket Entry 31-2.) Upon receipt
of a copy of the investigation report, Defendant Bullard ordered that Plaintiff be removed
from protective custody. (Bullard Aff.

13.)

Subsequently, on January 23, 2018, a non-party employee of NCDPS ordered
Defendant to return to regular population. (Ex. E at 14, Docket Entry 31-2.) However,
Defendant refused to do so. (Id) Defendant was charged with a B-25 infraction for failure
to obey a prison official’s lawful order. (Bullard Aff. *\\ 12; Ex. E at 6, Docket Entry 31-2.)

2 The investigator submitted his recommendation on January 19, 2018 to the shift officer-incharge, a non-party, who signed the document on January 22, 2018. (Ex. F at 1, Docket Entry 312.)
4

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 4 of 19

Plaintiff was found guilty at a subsequent disciplinary hearing, which was conducted by a nonparty hearing officer. (Ex. E at 2-3, Docket Entry 31-2.) The hearing officer also imposed
sanctions on Plaintiff, including loss of 30 days of good-time credits. (Id. at 2.) Defendant
appealed, but the decision was upheld by the chief disciplinary hearing officer. (Id. at 2.) In
addition to the sanctions imposed by the hearing officer, Plaintiff was placed in control
housing between March 8, 2018 and August 10,2018. (Bullard Aff.

19.) He then was moved

to modified housing, where he remained until he committed additional infractions on
November 21, 2018. (Id.; Tyler Aff. at 7.)
Additionally, Plaintiff was instructed on February 13, 2018 to provide a urine sample
for drug testing. (Ex. D at 1, Docket Entry 31-1.) When Plaintiff refused to comply, he was
again charged with an infraction. (Id.) The disciplinary hearing officer dismissed this charge
because proper procedures were not followed. (Id. at 3.)
Defendant Bullard filed her answer to the supplemental complaint on April 8, 2019.
(Docket Entry 29.) Defendant Poole did not file an answer to the supplemental complaint.
Defendants filed the instant motion for summary judgment, along with an accompanying brief
and affidavits, on May 14, 2019.

(Docket Entries 30, 31.)

Plaintiff subsequently filed a

response along with an affidavit3 on June 17, 2019. (Docket Entries 33, 34.) The matter is
ripe for disposition.

3 Plaintiff s affidavit alleges additional wrongs committed against him, including beatings he
received from third-party correctional officers after he set a mattress on fire in a cell block. (Tyler
Aff. at 7-10.) However, because these claims were not alleged in either the original or supplemental
complaint, the Court does not consider them.

5

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 5 of 19

II. DISCUSSION
Summary judgment is appropriate when there exists no genuine issue of material fact
and the moving party is entided to judgment as a matter of law. Fed. R. Civ. P. 56(c); Zabodnick
v. Int’l Bus. Machs. Corp., 135 F.3d 911, 913 (4th Cir. 1997).

The party seeking summary

judgment bears the initial burden of coming forward and demonstrating the absence of a
genuine issue of material fact. Temkin v. Frederick County Comm Is, 945 F.2d 716, 718 (4th Cir.
1991) (citing Celotex v. Catrett, All U.S.317, 322 (1986)). Once the moving party has met its
burden, the non-moving party must then affirmatively demonstrate that there is a genuine
issue of material fact which requires trial. Matsushita Flee. Indus. Co. Ftd. v. Zenith Badio Corp.,
475 U.S. 574, 587 (1986). There is no issue for trial unless there is sufficient evidence favoring
the non-moving party for a fact finder to return a verdict for that party. Anderson v. Liberty
Lobby, Inc., All U.S. 242, 250 (1986); Sylvia Dev. Corp. v. Calvert County, Md., 48 F.3d 810, 817
(4th Cir. 1995). Thus, the moving party can bear his burden either by presenting affirmative
evidence or by demonstrating that the non-moving party’s evidence is insufficient to establish
his claim. Celotex, All U.S. at 331 (Brennan, J., dissenting).
When making the summary judgment determination, the Court must view the
evidence, and all justifiable inferences from the evidence, in the light most favorable to the
non-moving party. Zahodnick, 135 F.3d at 913; Halperin v. Abacus Tech. Corp., 128 F.3d 191,196
(4th Cir. 1997). However, the party opposing summary judgment may not rest on mere
allegations or denials, and the court need not consider '“unsupported assertions” or “selfserving opinions without objective corroboration.” Anderson, All U.S. at 248-49; Evans v.
Techs. Applications <& Serv. Co., 80 F.3d 954, 962 (4th Cir. 1996).

6

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 6 of 19

Defendants raise several threshold issues that the Court now addresses.
A. Mootness
.

The Court first considers Defendants’ argument that any claims raised by Plaintiff that

seek injunctive or declaratory relief are moot, as Plaintiff is no longer incarcerated in Scotland.
“A case becomes moot—and therefore no longer a ‘Case’ or ‘Controversy’ for the purposes
of Article III—‘when the issues presented are no longer “live” or the parties lack a legally
cognizable interest in the outcome.’” Already, ISLC v. Nike, Inc., 568 U.S. 85, 91 (2013) (quoting
Murphy v. Hunt, 455 U.S. 478, 481 (1982) (per curiam). However, a case that is not “live,” but
is “capable of repetition, yet evading review,” is not moot. Murphy, 455 U.S. at 482. “[A]s a
general rule, a prisoner’s transfer or release from a particular prison moots his claims for
injunctive and declaratory relief.” Kendelman v. Rouse, 569 F.3d 182, 186 (4th Cir. 2009); see also
Incumaa v. O^mint, 507 U.S. 281, 286-287 (4th Cir. 2007). Here, Plaintiff s claims for injunctive
or declaratory relief are moot because he is no longer incarcerated at Scotland. Nor are the
claims here “capable of repetition, yet evading review” if he were to return to Scotland, as “he
would have sufficient opportunity to re-initiate ah action seeking injunctive relief.”

See

Rendelman, 569 F.3d at 186. Therefore, Plaintiffs claims for injunctive or declaratory relief
cannot survive and should be dismissed.
B. Sovereign Immunity
The Court next considers- Defendants’ argument that any claims seeking monetary
damages that are brought against them in their official capacities are barred by the Eleventh
Amendment. “[A] suit against a state official in his or her official capacity is not a suit against
the official but rather is a suit against the official’s office.” Will v. Michigan Dept, of State Police,

7

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 7 of 19

491 U.S. 58, 71 (1989) (citing Brandon v. Holt, 469 U.S. 464, 471 (1985)). It follows that just as
“the Eleventh Amendment bars a damages action against a state in federal court,” it also bars
suits against state officials in their official capacity. Kentucky v. Graham, 473 U.S. 159, 169
(1985). Here, both Defendants are officials of the State of North Carolina. (See Poole Aff.,
]f 3; Bullard Aff.,

3.) Therefore, claims seeking damages that are brought against them in

their official capacity are barred and should be dismissed.
C. Qualified Immunity
The Court finally considers Plaintiffs damage claims against Defendants in their
individual capacity. Defendants have raised the defense of qualified immunity as to all claims.
Under the doctrine of qualified immunity, “government officials performing discretionary
functions generally are shielded from liability for civil damages insofar as their conduct does
not violate clearly established statutory or constitutional rights of which a reasonable person
would have known.” Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982); see also Pidpath v. Bd. of
Governors Marshall Univ., 447 F.3d 292, 306 (4th Cir. 2006) (“Qualified immunity shields
government officials performing discretionary functions from personal-capacity liability for
civil damages under § 1983....”). Thus, the two-step qualified immunity inquiry requires a court
to determine (1) whether Plaintiff has alleged facts that make out a violation of a constitutional
right and (2) whether that right was clearly established at the time of the violation. See Pearson
v. Callahan, 555 U.S. 223, 232 (2009); Booker v. South Carolina Dep’t of Corr., 855 F.3d 533, 538
(4th Cir. 2017). The Court may consider the prongs of the test in any order. Pearson, 555 U.S.
at 236.

8

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 8 of 19

“To be clearly established, a right must be sufficiently clear that every reasonable
official

would

have

understood

that

what

he

is • doing

violates

that

right.”

Reichle v. Howards, 566 U.S. 658, 664 (2012) (internal quotation marks and alteration omitted).
In determining whether a right is clearly established, the Court first considers controlling
authority in the jurisdiction, i.e. the decisions of the United States Supreme Court, the Fourth
Circuit Court of Appeals, and the North Carolina Supreme Court. See Booker, 855 F.3d at 538.
Where there is no controlling authority, the Court may consider persuasive authority from
other jurisdictions. Id. at 539.

“It is important to emphasize that [a qualified immunity]

inquiry must be undertaken in fight of the specific context of the case, not as a broad general
proposition.” Brosseau v. Haugen, 543 U.S. 194, 198 (2004) (per curiam) (internal quotation
marks omitted) (quoting Saucier v. King, 533 U.S. 194, 201 (2001)).
The Court concludes that Defendants have qualified immunity with regard to every
remaining claim. Therefore, all claims must be dismissed.
1. First Amendment Free Exercise of Religion4
Plaintiff argues that Defendant Poole has violated his rights under the First
Amendment Free Exercise Clause by approving and enforcing the seating policy. (See Docket
Entry 4-7.)

The Court concludes that Defendant Poole is entitled to qualified immunity.

“In order to state a claim for violation of rights secured by the Free Exercise Clause,
an inmate, as a threshold matter, must demonstrate that: (1) he holds a sincere religious belief;
and (2) a prison practice or policy places a substantial burden on his ability to practice his

4 Plaintiff does not bring a claim under the Religious Land Use and Institutionalized Persons
Act, 42 U.S.C. §§ 2000cc et seq.
9

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 9 of 19

religion.” Carter v. Fleming, 879 F.3d 132,139 (4th Cir. 2018) (citing Thomas v. TeviewTd. Oflnd.
Emp’t Sec. Div., 450 U.S. 707, 718 (1981)). A substantial burden occurs when a policy or
practice places substantial pressure on the inmate to violate his beliefs or change his behavior.
Id. “[W|hen a prison regulation impinges on inmates’ constitutional rights, the regulation is
valid if it is reasonably related to legitimate penological interests.” Turner v. Safley, 482 U.S. 78,
89 (1987). In determining whether a prison regulation is reasonable, courts consider several
factors: (1) whether there is a valid, rational connection between a legitimate government
interest and the regulation; (2) “whether there are alternative means of exercising the right that
remain open to prison inmates;” (3) “the impact accommodation of the asserted constitutional
right will have on guards and other inmates, and on the allocation of prison resources
generally;” and (4) whether there are ready alternatives to the regulation. Id. at 89-91. An
inmate’s “First Amendment rights may be restricted in the interest of prison security.” Hause
v. Vaught, 993 F.2d 1079, 1082 (4th Cir. 1993) (discussing the rights of pretrial detainees); see
also Tell v. Wolfish, 441 U.S. 520, 545-547 (1979) (same). •
The Court assumes here that Plaintiff has alleged the violation of a constitutional right.5
Nonetheless, Defendant Poole has qualified immunity because the right of a prisoner to

5 Here, Defendant Poole does not challenge the sincerity of Plaintiffs religious beliefs, but
instead argues that it does not place a substantial burden on his ability to practice them. (Docket
Entry 16.) The Court disagrees. Plaintiff states that his religious beliefs do not permit him to. eat at
the same table as individuals who are dining on pork, or with individuals who otherwise ridicule
Muslim religious practices or commit wrongful acts. (Docket Entry 33 at 5-6.) Therefore, the
policy places a substantial burden on his religious beliefs when he is directed to sit with people he
views as wrongdoers, including those who are eating pork. Unfortunately, the briefing makes it
difficult for the Court go further and engage with the Turner factors. Most notably, Defendant Poole
has arguably failed to demonstrate a nexus between the seating policy and a legitimate government
interest. She states in her affidavit that the policy was adopted “to ensure that the inmates confined
at Scotland were provided a safer and more secure environment while eating in the dining hall.”
10

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 10 of 19

decline sitting with or near others who are dining on food forbidden by the prisoner’s religion,
or otherwise engaging in conduct prohibited by his religion, when his religion does not permit
such association, is not clearly established. While there are a number of cases pertaining to a
prisoner’s right to consume meals in accordance with his religious beliefs, see, e.g., Carter, 879
F.3d 132, there do not appear to be any decisions holding that a prisoner has the right to not
dine with other individuals, even if doing so is prohibited by the prisoner’s religion. Therefore,
Defendant Poole is entitled to qualified immunity and this claim should be dismissed.
2. First Amendment Freedom of Association
Plaintiffs claim that Defendant Poole has violated his First Amendment right to
freedom of association by approving and enforcing the seating policy (Docket Entry 34 at 1
4) also fails to overcome Defendant Poole’s qualified immunity, as Plaintiff has not alleged a
violation of a constitutional right. ‘While the First Amendment does not in terms protect a
‘right of association,’ [the Supreme Court] has recognized that it embraces such a right in
certain circumstances.” City of Dallas v, Stanglin, 490 U.S. 19, 23-24 (1989). Both “intimate
association” and “expressive association” are protected by the First Amendment, “social
association” is not. Id. at 25. Here, even if the Court were to ignore Plaintiff s incarceration
and the permitted burdens on his freedom of association, see Overton v. Baggetta, 539 U.S. 126,
131 (2003) (“(FJreedom of association is among the rights least compatible with
incarceration.”), Plaintiff has not alleged a violation of a constitutional right. Plaintiff seeks to
choose for himself with whom who he will, and will not, dine. (See Docket Entry 33 at 1.)

(Poole Aff., ^[ 8.) However, while safety is a legitimate government interest, Defendant Poole has
not provided, nor will the Court speculate, how the seating policy furthers that interest.
11

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 11 of 19

This is neither an intimate or expressive association protected by the First Amendment.
Furthermore, even if Plaintiff has alleged a violation of a constitutional right, that right is not
clearly established. Therefore, there is no dispute of material fact regarding Defendant Poole’s
qualified immunity and Plaintiff s claim should be dismissed.
3. Eighth Amendment Cmel and Unusual Punishment (Seating Policy
Claim)
Plaintiff next claims that Defendant Poole has violated his Eighth Amendment right
to be free of cmel and unusual punishment by approving and enforcing the seating policy.
(Docket Entry 8-9.) Defendant Poole is entitled to qualified immunity and this claim should
accordingly be dismissed.6
Plaintiff has failed to allege a violation of a constitutional right.

“The Eighth

Amendment, which prohibits infliction of ‘cmel and unusual punishments,’ applies to claims
by prisoners against corrections officials challenging conditions of confinement.” 'Porter v.
Clarke, 923 F.3d 348, 355 (2019) (citations omitted); see also Farmer v. Brennan, 511 U.S. 825,
832 (1994) (“The [Eighth] Amendment also imposes duties on [correctional] officials, who
must provide humane conditions of confinement. . ..”). Eighth Amendment condition-ofconfinement claims are evaluated by a two-part test that has both an objective and subjective

6 Defendant Poole characterizes Plaintiffs claim here as a complaint of conditions of
confinement. (Docket Entry 31 at 7.) Plaintiff disputes this characterization and appears to argue
that he has been excessively punished for some unspecified conduct of his. (Docket Entry 33 at 8.)
The Court agrees with Defendant Poole. Plaintiff contends that correctional officers directed him
into situations where he was physically vulnerable and threatened violence against him if he does not
comply (see Docket Entry 33 at 8), but such allegations comfortably fall within the conditions-ofconfinement framework. See Farmer v. Brennan, 511 U.S. 825, 829, 834 (1994) (applying the test for
conditions-of-confinement cases when an incarcerated plaintiff alleged that prison officials were
deliberately indifferent to her safety).
12

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 12 of 19

i

component. Id. “First, the deprivation alleged must be, objectively, sufficiendy serious.”
Farmer, 511 U.S. at 834 (internal citations and quotation marks omitted). To be “sufficiendy
senous, 5? CC a prison official’s act or omission must result in the denial of ‘the minimal civilized
measures of fife’s necessities.’” Id. (quoting Rhodes v. Chapman, 452 U.S. 337, 347 (1981).
Second, “a prison official must have a sufficiendy culpable state of mind.”

Id. (internal

quotation marks omitted) (quoting Wilson v. Seiter, 501 U.S. 294, 297 (1991)). In this context,7
“that state of mind is one of ‘deliberate indifference’ to inmate health or safety.” Id. (quoting
Wilson, 501 U.S. at 302-303). “A claim of deliberate indifference . . . implies at a minimum
that defendants were plainly placed on notice of a danger and chose to ignore the danger
notwithstanding the notice.” White ex rel. White v. Chambliss, 112 F.3d 731, 737 (4th Cir. 1997).
“[A] prison official cannot be found liable under the Eighth Amendment for denying an
inmate humane conditions of confinement unless the official knows of and disregards an
excessive risk to inmate health or safety . . ..” Farmer, 511 U.S. at 837.
Plaintiff s claim does not satisfy either prong of the test for an Eighth Amendment
condition-of-confinement claim.

First, the alleged deprivation suffered by Plaintiff—his

inability to sit where he pleases in the dining hall and being forced at times to sit with people
he finds repugnant or dangerous—is not sufficiently serious.

Second, alleged facts in

Plaintiffs complaints do not indicate that Defendant Poole acted with deliberate indifference

7 There is a subset of condition of confinement cases—those in which prison officials are
accused of excessive force—that require a higher level of fault on the part of defendant prison
officials, see Whitley v. A.lbers, 475 U.S. 312, 320-321 (1986), but the Court need not determine
whether that standard applies, since it concludes that Plaintiff fails to meet the more .common and
less demanding deliberate indifference fault standard.
13

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 13 of 19

to Plaintiff s safety (see Compl. ffl[ IV(D)-VI), nor does any evidence in the record. Indeed,
Plaintiff even states in his brief that he never informed correctional officers that some of the
people he objected sitting with were, to his knowledge, gang members, instead relying on other
excuses. (Docket Entry 34 at 2-3.) Additionally, there is no genuine dispute of material fact
regarding whether Defendant Poole was deliberately indifferent to Plaintiff s health or that of
other inmates. Defendant Poole indicates in her affidavit that she did not know of Plaintiff s
complaints regarding the seating policy, until she was served with the lawsuit, and nothing in
the record contradicts this assertion. (See Poole Aff. jf 10.) The Court concludes Plaintiff has
not alleged facts demonstrating a violation of a constitutional right, there is no dispute of
material fact regarding Defendant Poole’s qualified immunity, and Plaintiff s claim should be
dismissed.
4. Retaliation Claim Against Defendant Poole
Plaintiff s retaliation claim against Defendant Poole cannot survive. Plaintiff alleges
that Defendant Poole retaliated against Plaintiff, in violation of the First Amendment, for his
filing of the original complaint against her by punishing him via prison disciplinary procedures
and requiring him to provide a urine sample for a drug test. (Supp. Compl. at 4-5.) To succeed
on a retaliation claim under § 1983, Plaintiff must establish that “(1) pie] engaged in protected
First Amendment activity, (2) [Defendant Poole] took some action that adversely affected [his]
First Amendment rights, and (3) there was a causal relationship between [his] protected activity
and [Defendant Poole’s] conduct.” Constantine v. Rectors and Visitors of George Mason Univ., 411
F.3d 474, 499 (4th Cir. 2005). “[A] plaintiff suffers adverse action if the defendant’s allegedly
retaliatory conduct would likely deter a ‘person of ordinary firmness’ from the exercise of First

14

Case 1:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 14 of 19

Amendment rights.” Id. at 500 (quoting Washington v. County of dockland, 373 F.3d 310, 320
(2nd Cir. 2004)).

In the context of prison disciplinary proceedings, “[CJlaims of retaliation

must... be regarded with skepticism” because “[ejvery act of discipline by prison officials is
by definition ‘retaliatory’ in the sense that it responds direcdy to prisoner misconduct.” Adams
v. Rice, 40 F.3d 72, 74 (4th Cir. 1994).
Here, while Plaintiff successfully alleges that he engaged in a protected First
Amendment activity, see Borough ofDuryea, Pennsylvania v. Guarnieri, 564 U.S. 379, 387 (2011)
(“The Petition Clause [of the First Amendment] protects the rights of individuals to appeal to
courts and other forums established by the government for resolution of legal disputes.”), his
allegations that Defendant Poole took action that adversely affected that right are conclusory
(see Supp. Compl. at 4-5). Furthermore, the record demonstrates that Defendant Poole did
not participate in Plaintiff s disciplinary hearing for the B-25 infraction, except for her refusal
to be called as a witness by Plaintiff.8 (See Ex. E, Docket Entry 31-2.) Nor does the record
indicate that Defendant Poole was involved in the decision to drug-test Plaintiff or bring the
subsequent charges against him when he refused to provide a urine sample. (See Ex. D, Docket
Entry 31-1.) Therefore, there is no genuine dispute of material fact regarding Defendant
Poole’s lack of involvement in the allegedly retaliatory acts, Defendant Poole is entided to
qualified immunity, and Plaintiff s retaliation claim should be dismissed.

8 Plaintiff does not allege that Defendant Poole retaliated against by refusing to appear as a
witness, but rather states that she “brought the charge” against him. (Docket Entry 23 at 4.)
15

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 15 of 19

5. Eighth Amendment Cruel and Unusual Punishment (Dental Health
Claim)
Plaintiffs claim that both Defendants have violated his Eighth Amendment right to be
free of cruel and unusual punishment by ignoring his dental problems (Supp. Compl. at 5) also
should be dismissed. The Court concludes that Plaintiff has not alleged a violation of a
constitutional right. Therefore, both Defendants are entitled to qualified immunity.
Plaintiff has not alleged an Eighth Amendment violation here because, even assuming
the loss of several teeth due to delayed medical treatment is sufficiently serious, Plaintiff has
not alleged facts demonstrating that Defendants were deliberately indifferent. While Plaintiff
alleges that he had tried to receive dental treatment for several months, he at no point states
that either Defendant had notice of these attempts, nor does the record indicate that either
knew of these problems prior to the commencement of the instant suit.9 Indeed, it is not even
apparent that Defendant Bullard’s responsibilities had anything to do with the provision of
medical services. (See Bullard Aff.

3).

Because Defendants could not be deliberately

indifferent of Plaintiffs dental health without notice of the problems he was facing, see White,
112 F.3d at 737, Plaintiff has not alleged facts that constitute a violation of the Eighth
Amendment.

Defendants therefore have qualified immunity, and this claim should be

dismissed.

9 Plaintiff states in his supplemental complaint that, upon applying for protective custody, he
completed and signed a witness statement that “alleged that dining hall staff would not let [him] eat
in peace in the dining hall [and] that [he] had been trying to get [his] teeth pulled since around
Thanksgiving 2017 [and] hadn’t been seen by the dentist yet.” (Supp. Compl. at 1.) However, the
statement in fact makes no mention of Plaintiffs dental health problems. (See Ex. F at 1, Docket
Entry 31-2.)
16

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 16 of 19

6. Eighth Amendment Cruel and Unusual Punishment (Classification
Claim)
. Plaintiff s claim that both Defendants violated his right to be free of cruel and unusual
punishment by assigning him to punitive segregated housing for over 150 days after his
conviction of an infraction (Supp. Compl. at 5-6) also fails.

Plaintiff has not alleged a

constitutional violation here because he has not demonstrated a sufficiently serious
deprivation. See In re Lang Term Admin. Segregation ofInmates Designated as Five Percenters, 174 F.3d
464, 471-472 (4th Cir. 1999) (holding that three years of solitary confinement is not a “serious
deprivation of a basic human need” when plaintiffs have only alleged a “depressed mental
state” as a result of confinement).

Furthermore, Plaintiff does not allege deliberate

indifference on the part of the Defendants with regard to his classification.

Therefore,

Defendants have qualified immunity and this claim should be dismissed.
7. Fourteenth Amendment Due Process
Plaintiff s claim that both Defendants violated his right to due process by denying him
protective custody (id. at 6) is subject to qualified immunity because Plaintiff has failed to allege
the violation of a constitutional right. “The federal constitution itself vests no liberty interest
in inmates in retaining or receiving any particular security or custody status “‘[a]s long as the
[challenged] conditions of confinement ... is within the sentence imposed . . . and is not
otherwise violative of the Constitution.’” Sle^ak v. Evatt, 21 F.3d 590, 594 (4th Cir. 1994)
(alterations in original) (quoting Dewitt v. Helms, 459 U.S. 460, 468 (1983)). A liberty interest
in a particular custody classification can arise from state law that places “substantive limitations
on official discretion.” Id. (quoting Olim v. Wakinekona, 461 U.S.^38,249 (1983)). Yet Plaintiff
does not allege that Defendants departed from state procedures regarding protective control.

17

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 17 of 19

(See Suppl. Compl. at 6; see also Poole Aff. at 32-35.) Therefore, Plaintiff has not alleged a
constitutional violation, Defendants have qualified immunity, and Plaintiff s claim should be
dismissed.
8. Sixth Amendment Double Jeopardy
Plaintiff s claim that Defendant Bullard punished him for a disciplinary violation for
which he was already sanctioned by the disciplinary hearing officer, and thus violated the Fifth
Amendment Double Jeopardy Clause, (Supp. Compl. at 6) also fails in light of Defendant
Bullard’s qualified immunity. <c[T]he Double Jeopardy Clause does not prohibit the imposition
of all additional sanctions that could ... be described as punishment. The Clause protects
only against the imposition of multiple criminal punishments for the same offense.” Hudson v.
United States, 522 U.S. 93, 98-99 (1997) (emphasis in original) (citations omitted). Prison
disciplinary sanctions are not criminal punishments, and thus are not subject to the Double
Jeopardy Clause. See Fogle v. Pierson, 435 F.3d 1252, 1261-1262 (10th Cir. 2006) (holding that
prison disciplinary sanctions do not implicate the Double Jeopardy Clause); Feaster v. Mueller,
No. 1T8CV2705, 2018 WL 6045263 (D.S.C. Oct. 10, 2018) (same), adopted by, 2018 WL
6040840 (D.S.C. Nov. 11, 2018). Therefore, no violation of a right occurred here, and even if
one did, said right is not clearly established. Therefore, no genuine issue of material fact exists
to question Defendant Bullard’s qualified immunity, and this claim must be dismissed.

18

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 18 of 19

• *

*■

III. CONCLUSION
For the reasons stated herein, IT IS HEREBY RECOMMENDED that
Defendants’ Motion for Summary Judgment (Docket Entry 30) be GRANTED, and that this
action be dismissed.

^
Joe L. Webster
United States Magistrate Judge

November 25, 2019
Durham, North Carolina

19

Case l:17-cv-01104-WO-JLW Document 35 Filed 11/25/19 Paae 19 of 19

APPENDIX

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA
CASEY RAFEAL TYLER,
Plaintiff,
v.

I-CATY POOLE,
Defendants.

)
)
)
)
)
)
)
)
)

1:17CV1104

MEMORANDUM OPINION AND RECOMMENDATION
OF UNITED STATES MAGISTRATE TUDGE
This matter is before the Court on Plaintiff Casey Rafael Tyler’s motion for an
injunction and restraining order. (PL’s Mot., Docket Entry 14.) For the reasons stated herein,
the undersigned recommends that this motion be denied.
BACKGROUND
Plaintiff, a pro se prisoner housed at the Scotland Correctional Institution, filed a
Complaint pursuant to 42 U.S.C. § 1983 alleging as follows: beginning in 2015, Defendant
instituted a policy of assigning seats during meals for prisoners. (See Compl. ![ IV(C)-(D),
Docket Entry 2 at 5.) Plaintiff claims that as a result,
When I eat in the dining hall, I am under threat of violence from
prison staff, [and] forfeiture of my right [and] opportunity to eat,
if I don’t take my meal to the exact seat they tell me to occupy.
They force me to sit at 4-seat tables with gang members, people
who eat like slobs, sick people visibly [and] audibly [sneezing and]
coughing at the table, troublemakers, [and] people eating swine
[and] otherwise ridiculing the Signs of Allah, Who, in the Qur’an,
forbids me (as a Believer therein) from sitting with such people.

1

Case l:17-cv-01104-WO-JLW Document 19 Filed 09/06/18 Paae 1 of 6

This is Katy Poole’s operation, enforced by ALL her underlings
who work in the dining hall.
(Id.

IV(D).) As to his injuries, Plaintiff alleges he has suffered
Emotional distress. I have not been injured bodily in this case
except that I’ve gotten sick twice in a five week period ([sore]
throat, leaky nose), but assaults have occurred in the dining hall
in recent months [and] prison guards love to seat me where a line
of inmates will be standing [and] moving right behind me—so, I
am sometimes in danger of a blind-side attack, were another
inmate so inclined. And the only reason I have not been assaulted
by the guards on this matter is because I miss meals when I feel
that I cannot tolerate their bullshit, or I otherwise go out of my
way to avoid that fight. But certainly [I believe] my rights are
under perpetual assault her. Nor do I fear them, or to meet their
threatened violence with my own if they persist.

(Id. If V.)
Plaintiff seeks a restraining order that will transfer him to Central prison, permit him
to sit where he chooses at mealtimes or take his meal to his cell, and declaratory relief.1 (Id. ^[
VI.) He also seeks $200,000 in punitive damages or. any other damages to which he is entitled.
(Id.)

In his prayer for relief, Plaintiff adds,
Otherwise, the court can arraign me on felony charges where I stabbed the shit out of
the next asshole who dares to get in my face, trying to play musical fucking chairs with
me,'when I’m already seated [and] all I want to do is eat my fucking food [and] leave-[and] not be looking over my shoulder at the gang standing right behind me, within
arm’s reach; or hover over my own plate to prevent stuff from landing in it out of
somebody else’s mouth ‘cause they don’t know how to eat except like a freakin’
barbarian! Or whatever the case may be, stressing me the fuck out unnecessarily. . . .
And make no mistake: I seek an IMMEDIATE restraining order, ‘cause I’m not going
to keep missing meals just to avoid Katy Poole’s Thugs who can’t wait to beat me up
over a fucking seat, [and] (as the Court can probably tell) I have been as PATIENT as
I’m gonna be. Come 2018, I’m standing my ground against these clowns if they
threaten me in that dining hall.
(Comply VI.)
2

Case l:17-cv-01104-WO-JLW Document 19 Filed 09/06/18 Paae2of6

In the instant motion, Plaintiff alleges that he filed for protective custody (“PC”) and
“took [himself] to seg,” to seek relief from Defendant’s meal-seating policy. (Pl.’s Mot. at 12, Docket Entry 14.) A prison official named Sergeant Miles told Plaintiff to return to the
general population or face disciplinary action. (Id. at 2.) Thereafter, Plaintiff received a notice
of an impending disciplinary action. (Id.) Plaintiff alleges that Defendant is retaliating against
him by refusing to allow Plaintiff to eat in “seg” unless he is “there under a punitive status.
(Id.) He therefore seeks a preliminary injunction and asks the Court to “restrain [Defendant]
from prosecuting [him] for his decision to seek PC” to avoid the seating policy; or, if he is
prosecuted and convicted for seeking PC, to address and reverse or stay the verdict and
penalties associated with any conviction arising from that refusal. (Id. at 3.)
DISCUSSION
A party seeking a preliminary injunction or temporary restraining order2 must establish
all four of the following elements: (1) he is likely to succeed on the merits; (2) he is likely to
suffer irreparable harm in the absence of preliminary relief; (3) the balance of equities tips in
his favor; and (4) an injunction is in the public interest.

Winter v. Natural Resources Defense

Council, Inc., 555 U.S. 7,20 (2008); see also The Real Truth About Obama, Inc. v. Fed. Flection Comm ’n,
575 F.3d 342, 346-47 (4th Cir. 2009), overruling Blackwelder Furniture Co. of Statesville v. SeiligMfg.
Co., 550 F.2d 189 (4th Cir. 1977).3

A party must make a clear showing that he is likely to

2 The substantive standard for granting either a temporary restraining order or a preliminary injunction
is the same. See e.g., United States Dept, ofTabor v. WolfRun Mining Co., 452 F.3d 275, 281 n.l (4th Cir.
2006).
3 The original decision in Real Truth was vacated by the Supreme Court for further consideration in
light of Citizens United v. Fed. Flection Comm ii, 558 U.S. 310 (2010). However, the Fourth Circuit
reissued its opinion on Parts I and II of its earlier opinion in the case, 575 F.3d at 345-47, stating the

3

Case l:17-cv-01104-WO-JLW Document 19 Filed 09/06/18 Paae3of6

succeed on the merits of his claim. Winter; 555 U.S. at 20; Real Truth, 575 F.3d at 345-46.
Similarly, he must make a clear showing that he is likely to be irreparably harmed absent
injunctive relief. Winter, 555 U.S. at 20-22; Real Truth, 575 F.3d at 347. Only then does the
court consider whether the balance of equities tips in the favor of the party seeking the
injunction. See Real Truth, 575 F.3d at 346-47.

Finally, the court must pay particular regard

to the impact of the extraordinary relief of an injunction upon the public interest. Keal Truth,
575 F.3d at 347 (quoting Winter, 555 U.S. at 23-24). Injunctive relief, such as the issuance of
a preliminary injunction, is an extraordinary remedy that may be awarded only upon a clear
showing that the plaintiff is entitled to such relief. Ma^urek v. Armstrong, 520 U.S. 968, 972
(1997); see also MicroStrategy Inc. v. Motorola, Inc., 245 F.3d 335, 339 (4th Cir. 2001) (citation and
quotation omitted) (a preliminary injunction is an “extraordinary remedjy] involving the
exercise of very far-reaching power to be granted only sparingly and in limited circumstances”).
Here, Plaintiff has failed to make the requisite showing for preliminary injunctive relief.
At this point in the proceedings Plaintiff has not made a “clear showing” that he is likely to
succeed on the merits. Winter, 444 U.S. at 22. The Supreme Court has repeatedly stressed the
need to provide wide-ranging deference to prison administrators in matters of prison
management. See Beard v. Banks, 548 U.S. 521, 528 (2006); Overton v. Bas^etta, 539 U.S. 126,
132 (2003) (“We must accord substantial deference to the professional judgment of prison
administrators, who bear a significant responsibility for defining the legitimate goals of a
corrections system and for determining the most appropriate means to accomplish them.”).

facts and articulating the standard for issuance of a preliminary injunction, before remanding it to the
district court for consideration in light of Citizens United. See The Real Truth About Obama, Inc. v. Fed.
Election Comm’n, 607 F.3d 355 (4th Cir. 2010).

4

Case l:17-cv-01104-WO-JLW Document 19 Filed 09/06/18 Paae4of6

Here, Plaintiff has merely stated that Defendant has created and enforced a policy that assigns
seating at meal times and has declined to make an exception to this policy to accommodate
Plaintiffs preference. Thus, Plaintiff has not made a clear showing of likelihood of success
on the merits.
Additionally, Plaintiff has failed to show that he will suffer irreparable harm if an
injunction is not issued. Plaintiff has alleged no bodily harm except for an illness which he
has not shown to be clearly attributable to Defendant’s policy. Neither has he. pleaded facts
to support his claim of emotional distress. Rather, Plaintiff relies primarily on possible future
harm in the form of assault by other prisoners or guards, or disciplinary action by Defendant.
But speculative injury cannot constitute irreparable harm. See Dunn v. Fed. Bureau of Prisons,
No. 5:12CV55, 2013 WL 365257, at *2 (N.D.W. Va. Jan. 30, 2013) (citing Caribbean Marine
Services Co. v. Baldridge, 844 F.2d 668, 674 (9th Cit. 1988)). Plaintiff has therefore failed to
adequately show any likelihood of irreparable harm.
Even if Plaintiff had shown both a likelihood of success on the merits and that he
would suffer irreparable harm absent a preliminary injunction, Plaintiff has not shown that the
balance of equities tips in his favor or that an injunction is in the public interest. As previously
noted, Courts should generally defer prison administrators in matters of prison management
and discipline. See Beard, 548 U.S. at 528; Overton, 539 U.S. at 131-32; Dunn, 2013 WL 365257,
at *3 (citing Bell v. Wolfish, 441 U.S. 520 (1979)) (“[I]t is not the position of this Court to
interfere in the administration of prisons and the discipline of inmates.”). Thus, the balance
of equities in this situation does not favor Plaintiff, and the Court cannot conclude that the
public interest would be served by court involvement in mealtime seating preferences in

5

Case l:17-cv-01104-WO-JLW Document 19 Filed 09/06/18 Paae5of6

prisons or the disciplinary action a prisoner faces when he refuses to adhere to such policies.
Keith v. Merck., No. 1:13-CV-2721-RMG-SVH, 2014 WL 3799063, at *4 (D.S.C. July 29, 2014)
(citing Wetzel v. Edwards, 635 F.2d 283, 288 (4th Cir.1980) (“The possible injury to the [prison
administrators] if the preliminary injunction stands is potentially grave.”)). Accordingly, the
undersigned recommends that Plaintiffs motion for a preliminary injunction be denied.
CONCLUSION
For the reasons stated herein, IT IS HEREBY RECOMMENDED that Plaintiffs
Motion for an Injunction and Restraining Order (Docket Entry 14) be DENIED.
1'
joe L. Webster
United States Magistrate Judge

September 6, 2018
Durham, North Carolina

6

Case 1:17-cv-01104-WO-JLW Document 19 Filed 09/06/18 Paae 6 of 6

Additional material
from this filing is
available in the
Clerk's Office.

